CERTIFICATE OF SERVICE
No. 19-1299
In the Supreme Court of the United States
THE CHAMBERLAIN GROUP, INC.,
Petitioner,
v.
TECHTRONIC INDUSTRIES CO. LTD., TECHTRONIC INDUSTRIES NORTH AMERICA, INC.,
ONE WORLD TECHNOLOGIES, INC., OWT INDUSTRIES, INC., RYOBI TECHNOLOGIES, INC.,
Respondents.

I, Jeremy Cooper Doerre, a member of the Bar of this Court, do hereby certify
that on this 8th day of July, 2020, I caused an electronic copy of the Brief of the
Honorable Randall R. Rader (Ret.) and ChargePoint, Inc. as Amici Curiae Supporting
Petitioner to be served by email on the following counsel for the parties, each of whom
has consented to electronic service in accordance with this Court’s indication in its
order of April 15, 2010 that “parties may be relieved of the obligation to effect service
of paper versions of filings upon other parties if they agree to electronic service” and
that “parties are strongly encouraged to use electronic service if feasible”:
E. Joshua Rosenkranz
Counsel of Record
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
jrosenkranz@orrick.com
Counsel for Petitioner

William Robert Peterson
Counsel of Record
Morgan, Lewis & Bockius LLP
1000 Louisiana Street
Suite 4000
Houston, TX 77002
Counsel for Respondents

I further certify that all parties required to be served have been served.

Certificate of Service, p. 2

Pursuant to the Court’s Order of April 15, 2020 indicating that “with respect
to every document filed in a case prior to a ruling on a petition for a writ of certiorari
or petition for an extraordinary writ, or a decision to set an appeal for argument, a
single paper copy of the document, formatted on 8½ x 11 inch paper, may be filed,”
and that “[t]he document may be formatted under the standards set forth in Rule
33.2, or under the standards set forth in Rule 33.1 but printed on 8½ x 11 inch paper,”
I also certify that on this 8th day of July, 2020, I caused one copy of this brief
formatted under the standards set forth in Rule 33.1 but printed on 8½ x 11 inch
paper to be sent via a third-party commercial carrier (FedEx) for delivery to the Clerk
of this Court within 3 calendar days.
In addition, this brief has been submitted electronically through the Court’s
electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 8, 2020
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

